TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                Modernized e-File Will Enhance Processing of
                 Electronically Filed Individual Tax Returns,
                   but System Development and Security
                             Need Improvement



                                           May 26, 2010

                              Reference Number: 2010-20-041




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    HIGHLIGHTS


MODERNIZED E-FILE WILL ENHANCE                         The System Integration Test Results indicated
PROCESSING OF ELECTRONICALLY                           all application requirements were tested and
FILED INDIVIDUAL TAX RETURNS, BUT                      passed. However, supporting test documents
SYSTEM DEVELOPMENT AND                                 showed that many of the requirements were not
                                                       tested and many more failed the tests and no
SECURITY NEED IMPROVEMENT
                                                       indication was provided to show the defects
                                                       were corrected. Additionally, reviewing prior
Highlights                                             release development and deployment
                                                       experiences – Lessons Learned Reports –
                                                       would improve project management.
Final Report issued on May 26, 2010
                                                       Further, controls were not adequate to manage
Highlights of Report Number: 2010-20-041               all of the MeF system security risks, issues, and
to the Internal Revenue Service Chief                  action items. Information provided by the IRS
Technology Officer.                                    in December 2009, showed that 10 of the
                                                       13 security vulnerabilities were resolved.
IMPACT ON TAXPAYERS                                    However, the January 2010 Security Test and
The Modernized e-File Project’s (MeF) goal is          Evaluation reported that only 2 of the
to replace the Internal Revenue Service’s (IRS)        13 vulnerabilities were resolved.
current tax return filing technology with a            WHAT TIGTA RECOMMENDED
modernized, Internet-based electronic filing
platform. This will allow more individual              TIGTA recommended the Chief Technology
taxpayers to take advantage of the benefits of         Officer ensure that project releases are
electronic filing, while streamlining the IRS’         deployed only after all system requirements are
filing processes and reducing the costs                tested and met and that test results are verified
associated with paper tax returns. The IRS’            to ensure their completeness and accuracy.
management of the Project’s risks,                     Further, guidance should be modified to require
requirements, and security can be improved to          consideration of Lessons Learned Reports
ensure the capabilities expected and approved          earlier in the project development process.
to be deployed are appropriately implemented.
                                                       To resolve all MeF system security issues, the
WHY TIGTA DID THE AUDIT                                Cybersecurity organization must complete
                                                       implementation of the process to ensure that
This review was part of our Fiscal Year 2010           system owners enter and track all system
Annual Audit Plan and addresses the major              security weaknesses in IRS control systems.
management challenge of Modernization of the
IRS. The overall objective of this review was to       In its response to the report, the IRS stated it
determine whether the MeF Project Release 6.1          plans to update project development guidance
development activities provided the capability to      and that it completed the process to control
electronically receive, process, and secure U.S.       system security weaknesses as of
Individual Income Tax Returns (Form 1040),             March 25, 2010. The IRS disagreed with the
delivering the intended benefits to the IRS and        recommendation about release deployment
taxpayers.                                             only after testing showed requirements were
                                                       met, citing milestone readiness reviews and the
WHAT TIGTA FOUND                                       Executive Steering Committee as controls.
                                                       With the significant number of failed tests and
On February 17, 2010, the IRS deployed MeF
                                                       the resulting problems in rejected individual
Release 6.1 and began processing
                                                       income tax returns filed, TIGTA questions
electronically filed individual income tax forms.
                                                       whether the Executive Steering Committee had
During the first 3 weeks of operation, the MeF
                                                       sufficient and timely information to make an
system rejected 23 percent of the individual
                                                       informed risk-based decision for deploying
income tax returns filed.
                                                       MeF Release 6.1.
                                                DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                May 26, 2010


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER


 FROM:                    (for) Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Modernized e-File Will Enhance Processing of
                                 Electronically Filed Individual Tax Returns, but System Development
                                 and Security Need Improvement (Audit # 200920023)

 This report presents the results of our review of the Modernized e-File Project Release 1 6.1
 development activities. The overall objective of this review was to determine whether the
 Modernized e-File Project Release 6.1 development activities will provide the capability to
 electronically receive, process, and secure U.S. Individual Income Tax Returns (Form 1040),
 delivering the intended benefits to the Internal Revenue Service and taxpayers. This review was
 part of our Fiscal Year 2010 Annual Audit Plan and addresses the major management challenge
 of Modernization of the Internal Revenue Service.
 Management’s complete response to the draft report is included as Appendix VII.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or Alan Duncan,
 Assistant Inspector General for Audit (Security and Information Technology Services), at
 (202) 622-5894.




 1
     See Appendix VI for a glossary of terms.
                                  Modernized e-File Will Enhance Processing of
                                 Electronically Filed Individual Tax Returns, but
                              System Development and Security Need Improvement




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Modernized e-File Project Adds New Electronic Filing Capabilities
          and Improves Existing Capabilities ..............................................................Page 3
          The Modernized e-File Project Team Has Not Completely Addressed
          Previously Reported Requirements Management and Processing Issues.....Page 4
                    Recommendation 1:........................................................Page 6

          The Modernized e-File Project Team Generally Followed Established
          Systems Development Processes, but Can Improve Its Management of
          Requirements and Risks................................................................................Page 7
                    Recommendations 2 and 3: ..............................................Page 11

          Modernized e-File Security Issues Were Not Adequately Controlled
          or Resolved ...................................................................................................Page 12
                    Recommendation 4:........................................................Page 17


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 18
          Appendix II – Major Contributors to This Report ........................................Page 22
          Appendix III – Report Distribution List .......................................................Page 23
          Appendix IV – Enterprise Life Cycle Overview ..........................................Page 24
          Appendix V – Status of Resolution for Modernized e-File System
          Security Vulnerabilities and Security Findings ............................................Page 26
          Appendix VI – Glossary of Terms................................................................Page 31
          Appendix VII – Management’s Response to the Draft Report.....................Page 34
            Modernized e-File Will Enhance Processing of
           Electronically Filed Individual Tax Returns, but
        System Development and Security Need Improvement




                   Abbreviations

IRS          Internal Revenue Service
MeF          Modernized e-File
MITS         Modernization and Information Technology Services
TIGTA        Treasury Inspector General for Tax Administration
                                Modernized e-File Will Enhance Processing of
                               Electronically Filed Individual Tax Returns, but
                            System Development and Security Need Improvement




                                               Background

The Modernized e-File (MeF) system is a replacement            The MeF system supports and
of the current Internal Revenue Service (IRS) tax            facilitates the IRS’ commitment to
return filing technology with a modernized,                  achieve the IRS Restructuring and
Internet-based electronic filing platform. This system           Reform Act of 1998 goal of
streamlines tax return filing processes and reduces the      receiving at least 80 percent of all
                                                               tax returns in electronic form.
costs associated with paper tax returns.
In February 2004, the IRS deployed the initial
MeF system release. 1 This release provided Internet-based filing of the U.S. Corporation Income
Tax Return (Form 1120), the U.S. Income Tax Return for an S Corporation (Form 1120S), and
the Return of Organization Exempt From Income Tax (Form 990). The MeF Project also
developed the Federal/State Single Point Filing System platform and the Federal/State
components for Forms 1120 and 990, permitting tax return transmitters to submit multiple
Federal and State tax return types within one electronic transmission.
Subsequent releases added the U.S. Return of Partnership Income (Form 1065), U.S. Return of
Income for Electing Large Partnerships (and Form 1065-B), excise tax forms associated with the
Excise Tax e-File and Compliance project, U.S. Income Tax Return of a Foreign Corporation
(Form 1120-F), and the Electronic Notice (e-Postcard) for Tax-Exempt Organizations Not
Required to File Form 990 or 990-EZ (Form 990-N).
MeF Release 6.1 was deployed in February 2010 and includes the U.S. Individual Income Tax
Return (Form 1040), Application for Automatic Extension of Time To File U.S. Individual
Income Tax Return (Form 4868), and 21 forms and schedules related to Form 1040 for Tax
Year 2009. Future releases will include hardware installation for full Form 1040
implementation, full disaster recovery capability, and the remaining Form 1040 related forms
(approximately 120 forms).
For all forms submitted, electronic filing transmitters use IRS approved software to allow them
to electronically file tax returns. Returns received electronically are validated for format and
content, and an acknowledgement is returned to the transmitter indicating whether the return was
accepted or rejected. Accepted returns are stored in the Modernized Tax Return Database, the
legal repository for original electronically filed tax returns received by the IRS through the
MeF system, and forwarded to IRS downstream systems for further tax processing.
The MeF system is 1 of more than 200 computer systems maintained by the IRS to administer
the nation’s tax system. Each tax return contains personally identifiable information, such as the

1
    See Appendix VI for a glossary of terms.
                                                                                            Page 1
                             Modernized e-File Will Enhance Processing of
                            Electronically Filed Individual Tax Returns, but
                         System Development and Security Need Improvement



filer’s name, address, Social Security Number, and other personal information. Because of the
volume and type of data it maintains, the IRS is an attractive target for criminals with the intent
to commit identity theft by stealing and using someone’s personal information for their own
financial gain.
Like all Federal Government agencies, the IRS should        The IRS stores sensitive financial and
protect its computer systems by implementing                  personal information for more than
appropriate security controls to ensure the                 130  million individual taxpayers who
                                                           file annual Federal income tax returns.
confidentiality, integrity, and availability of sensitive
data, as recommended in the National Institute of
Standards and Technology Special Publication 800-53. 2 These security controls include system
access, audit logging, and contingency planning. In addition, the IRS is specifically required by
Federal law 3 to keep taxpayer data confidential and prevent unauthorized disclosure or browsing
of taxpayer records. These requirements apply to all IRS computer systems that maintain
sensitive data.
This review was performed at the Modernization and Information Technology Services (MITS)
organization facilities in New Carrollton, Maryland, during the period August 2009 through
February 2010. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. This review was
included in the Treasury Inspector General for Tax Administration (TIGTA) Fiscal Year 2010
Annual Audit Plan and addresses the major management challenge of Modernization of the IRS.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




2
 Recommended Security Controls for Federal Information Systems, Revision 2, dated December 2007.
3
 Internal Revenue Code Section 6103 (26 U.S.C. Section 6103) and the Taxpayer Browsing Protection Act of 1997
(26 U.S.C.A. Sections 7213, 7213A, 7431 (West 2006).
                                                                                                      Page 2
                          Modernized e-File Will Enhance Processing of
                         Electronically Filed Individual Tax Returns, but
                      System Development and Security Need Improvement




                                Results of Review

The Modernized e-File Project Adds New Electronic Filing Capabilities
and Improves Existing Capabilities
The IRS deployed Release 6.1 on February 17, 2010, and for the first time, began processing
electronically filed individual tax forms on the MeF system. MeF Release 6.1 also permits tax
return transmitters to submit multiple Federal and State individual tax returns within one
electronic transmission. MeF Release 6.1 provides benefits by improving individual tax return
filing and processing efficiency and by being the system that provides tax form information to
other IRS systems for use by employees.
The MeF Release 6.1 development included a plan to effectively manage the expected large
processing volume of individual tax returns and requests for an extension to file. This plan
incorporates a prudent approach by limiting the volume of forms for processing in Calendar
Year 2010 so the IRS and tax form transmitters have an opportunity to observe system behavior
and responses. Based on the system performance in Calendar Year 2010, the MeF system can be
adjusted to manage the full workload of individual tax returns during Calendar Year 2011.
The plan controls the volume of processing by providing participating transmitters a limit to the
number of forms they can submit daily. The daily totals are based on 2009 volumes and
discussions held with the transmitters. Based on agreements with transmitters, the IRS estimates
MeF Release 6.1 will process the following volumes of individual tax forms during the periods
specified:
   •   February 17, 2010, through February 28, 2010 – 1.5 million forms.
   •   March 1, 2010, through March 31, 2010 – 4.4 million forms.
   •   April 1, 2010, through April 15, 2010 – 5 million forms.
Based on these estimates, MeF Release 6.1 will process during these periods almost 11 million
of the 15.6 million projected total individual tax forms the MeF system is expected to receive
electronically.




                                                                                          Page 3
                                Modernized e-File Will Enhance Processing of
                               Electronically Filed Individual Tax Returns, but
                            System Development and Security Need Improvement



The Modernized e-File Project Team Has Not Completely Addressed
Previously Reported Requirements Management and Processing
Issues
Verifying Development of Requirements: In a prior TIGTA audit report entitled The
Modernized e-File Project Can Improve Its Management of Requirements, 4 we recommended
Project Teams follow the Enterprise Life Cycle 5 provisions for managing requirements by
ensuring planned capabilities were developed by tracing release requirements in the System
Requirements Report to the requirements traceability verification matrices. In addition, we
recommended the Project Team document implementation of all requirements throughout the
project life cycle in the System Requirements Report. The IRS’ corrective action for MeF
Requirements Traceability indicated that for Release 6, the MeF Project was working with the
Business Rules and Requirements Management office to implement a full bi-directional
traceability model. The IRS reported implementation of the corrective actions was completed
January 16, 2009.
To determine if the MeF Release 6.1 requirements were adequately traced between the high-level
and low-level requirements, we reviewed the:
      •    Business System Requirements Report Final, System Development Phase (Milestone 4b),
           dated December 3, 2009, which presents all of the requirements for implementation in
           Release 6.1.
      •    System Integration and Test Plan, Appendix A – Integration, Test, and Deployment
           Requirements Traceability Verification Matrix, dated November 3, 2009, which presents
           the bi-directional traceability between the release requirements and the related test cases.
We selected a sample of customer and system requirements to verify the adequacy of the
bi-directional traceability for the MeF Release 6.1 requirements. The project staff performed the
bi-directional requirements tracing between the Business System Requirements Report Final and
the System Integration and Test Plan as required by the Enterprise Life Cycle.
The System Integration and Test End of Test Completion Report documents actual testing results
and identifies applicable environmental, test approach, test design, test planning, and test
execution variances from the original Test Plan. The Requirements Traceability Verification
Matrix delivered in the original Test Plan must be updated to document the actual results of test
execution. On March 5, 2010, after we had held our closing conference with the IRS, the Project
Team provided the System Integration and Test End of Test Completion Report, dated
January 22, 2010, which reported that all MeF Release 6.1 capabilities passed testing.
Subsequently, on March 8, 2010, the Project Team provided Appendix A, which included two

4
    Reference Number 2007-20-099, dated July 9, 2007.
5
    See Appendix IV for an overview of the Enterprise Life Cycle.
                                                                                                 Page 4
                           Modernized e-File Will Enhance Processing of
                          Electronically Filed Individual Tax Returns, but
                       System Development and Security Need Improvement



matrices – the Test, Assurance, and Documentation Requirements Traceability Verification
Matrix and the Integration, Test, and Deployment Requirements Traceability Verification
Matrix. The test execution results presented for the Test, Assurance, and Documentation
Requirements Traceability Verification Matrix reported failed tests and defect reports for the
MeF Release 6.1. These failed test results were not accurately summarized in the final report.
Additionally, the Integration, Test, and Deployment Requirements Traceability Verification
Matrix did not present any test execution results. The following table presents the tests results
reported in the System Integration and Test End of Test Completion Report summary and in each
of the traceability verification matrix sections.
                          Table 1: MeF Release 6.1 Testing Results

                                                                                      Number of
         Section of System Integration and Test                   Number of         Test Cases With
             End of Test Completion Report                        Failed Tests      Defect Reports
   Report Summary                                                       0                     8
   Appendix A – Integration, Test, and Deployment                  No Results           No Results
   Requirements Traceability Verification Matrix                    Provided             Provided
   Appendix A – Test, Assurance, and Documentation
                                                                        34                  120
   Requirements Traceability Verification Matrix
     Source: System Integration and Test End of Test Completion Report, dated January 22, 2010.

The Test, Assurance, and Documentation Requirements Traceability Verification Matrix also
presented the following results about uncompleted tests: 29 blocked; 37 not run; 4 in progress;
and 17 candidates for waiver. None of these results were included in the report body summary,
and when asked about these conditions, the IRS did not provide an explanation for the conflicts
between the final report and the supporting documentation.
Although the Project Team traced requirements between the Business System Requirements
Report Final and the System Integration and Test Plan, the System Integration and Test End of
Test Completion Report shows the test results were not traced to the requirements, and the
application did not execute all of the requirements as expected. The lack of consistent
information regarding the effective execution of application requirements could impact the
ability of the MeF system to perform the expected capabilities. In fact, during the first 3 weeks
of operation, the MeF system rejected 29,697 (23 percent) of the 127,105 individual income tax
returns filed.
We did not perform analyses to specifically determine whether the rejected individual income
tax returns were directly related to the failed tests and identified defects. However, the TIGTA is
currently conducting another audit to determine whether individual income tax returns
transmitted through the MeF system are processed timely and accurately and in a manner
consistent with tax returns processed in the current e-file system.
                                                                                                     Page 5
                               Modernized e-File Will Enhance Processing of
                              Electronically Filed Individual Tax Returns, but
                           System Development and Security Need Improvement



Recommendation
Recommendation 1: The Chief Technology Officer should ensure that project releases are
deployed only after all system requirements are tested and met and that test results are verified to
ensure their completeness and accuracy. If requirements are not met, defect reports should be
prepared to allow for appropriate resolution by retesting or waiving the requirement prior to
deployment.
          Management’s Response: The IRS disagreed with our recommendation. The IRS
          cited its milestone readiness review as a process for monitoring a project’s progress
          toward satisfying exit conditions and for making formal go/no-go recommendations to
          the Executive Steering Committee. The Executive Steering Committee process provides
          the forum to discuss risk-based decisions prior to deployment of systems built and
          products delivered.
          Office of Audit Comment: We acknowledge the controls the milestone readiness
          review and the Executive Steering Committee provide, and understand the role testing
          plays to ensure systems perform their intended functions accurately and reliably.
          However, with the significant number of failed tests reported and the subsequent
          problems with rejected individual income tax returns filed, we question whether the
          Executive Steering Committee had sufficient and timely information to make an
          informed risk-based decision for deploying MeF Release 6.1. As such, we continue to
          believe our recommendation to ensure that all system requirements are tested and met
          and results verified prior to deployment is valid and should be considered by the IRS.
Processing Valid Income Tax Returns for S Corporations – Form 1120S: In a prior TIGTA
report entitled Improvements to the Modernized e-File System Will Help Provide Intended
Benefits to the Internal Revenue Service and Taxpayers, 6 we reported that as a result of MeF
Release 4 processing the Modernized Tax Return Database and the Business Master File did not
always agree on the taxpayer’s entity information. Filing discrepancies occurred with the
taxpayer’s qualification to file a Form 1120, Form 1120S, or Form 1065 or with the tax periods
reported by the taxpayer. Procedures were in place in the Submission Processing function to
perfect tax return information sent from the Modernized Tax Return Database to the Business
Master File. These procedures require correspondence with the taxpayer to resolve issues around
the propriety of the tax return type necessary for filing.
However, we found that available front-end tax return validation controls are not being used to
prevent inaccurate tax returns from being accepted by the MeF system. These controls notify
taxpayers that they did not meet the qualifications for the entity or tax period used in filing and
would need to file a different form. These controls prevent unnecessary tax return processing,


6
    Reference Number 2008-20-122, dated June 18, 2008.
                                                                                              Page 6
                          Modernized e-File Will Enhance Processing of
                         Electronically Filed Individual Tax Returns, but
                      System Development and Security Need Improvement



error resolution activity by the Submission Processing function, and correspondence with
taxpayers.
We recommended that the Director, Submission Processing, and the Director, Electronic Tax
Administration, perfect the validation controls to verify that taxpayers file the correct tax form
based on their established filing election. These controls
will prevent the MeF system from accepting the incorrect
                                                                   Implementing controls to ensure
tax forms filed by taxpayers and, therefore, reduce the             acceptance of valid tax returns
number of tax returns requiring Submission Processing                   prevents unnecessary
function staff involvement. The IRS agreed with the                processing and correspondence
recommendation for Form 1065 and Form 1120 and                       by the IRS and unnecessary
implemented the validation controls. The IRS proposed not          correspondence    with taxpayers.
implementing the validation controls for Form 1120S until
processing and system limitations could be overcome.
We followed up to determine the status of the corrective action for implementing the
Form 1120S validation controls. The Wage and Investment Division’s Submission Processing
function informed us that the processing and system limitations for implementing the
Form 1120S validation controls still exist. However, the Submission Processing function is
planning to implement a solution to reduce the number of Form 1120S tax returns that are
accepted and subsequently require further communication with the taxpayer regarding propriety
of their current filing election.

The Modernized e-File Project Team Generally Followed Established
Systems Development Processes, but Can Improve Its Management
of Requirements and Risks
Our assessment of MeF Release 6.1 project management controls, that included project work
breakdown structure schedules, task orders and modifications, and meeting minutes, found that
adequate documentation was developed and maintained to meet Enterprise Life Cycle
requirements. Additionally, the MeF Project Team adequately controlled and monitored funding
for MeF Releases 6.1, 6.2, and 7. However, improvements to guidance in managing
requirements and risks could have enhanced the project development schedule.

The MeF Project Team generally followed established systems development
processes
The MeF Project Team adequately implemented the following management controls for
developing Release 6.1.
Configuration Management: The configuration management plan addresses key items required
by the Enterprise Life Cycle. The configuration management plan requires a repository for


                                                                                             Page 7
                          Modernized e-File Will Enhance Processing of
                         Electronically Filed Individual Tax Returns, but
                      System Development and Security Need Improvement



project documentation and assigns responsibility for its maintenance and establishes a process
for initiating and approving change requests.
Quality Management: The quality management plan adequately describes activities, roles, and
responsibilities for the MeF quality assurance program. MeF Project quality examinations,
customer technical reviews, and monthly contractor reports did not identify any issues or
inconsistencies with planned quality assurance activities in the quality management plan.
Transition Management: MeF Release 6.1 development activities included end-user training
plans, manuals, and organizational changes to provide adequate transition from system
development to system operation. Reviews show that end-user manuals and related contact
information was developed, and end-user training is on schedule.
Project Funding Management: The MeF Project Team properly controlled and monitored
funding for MeF Releases 6.1, 6.2, and 7. Funding and scope changes were properly
documented and approved for restructuring the MeF Project release schedule, as evidenced by
documentation and meeting minutes from the IRS’ MITS organization Enterprise Governance
committee and Submission Processing Executive Steering Committee, the Department of the
Treasury, and the Office of Management and Budget.
Funding realignments were properly controlled and approved. The Project required realignment
of $34 million from Release 7 to 6.1 to support unplanned and required needs including disaster
recovery preparation and testing, the integration of processing and access with other applications
and external users, and expanded hardware needs. This realignment was properly documented,
controlled, and approved through the Submission Processing Executive Steering Committee.
The MeF Project funding also was the subject of several monthly MITS organization internal
controls. These controls include the:
   •   Information Technology Project Control Review – assesses project progress and status in
       terms of management of cost, schedule, and technical complexity.
   •   Project Health Assessments – monitors risks associated with project management
       performance.
   •   Performance Measures Report – reports performance measures for both schedule and cost
       estimates at the project release and milestone level.

The MeF Project Team could have more effectively managed the risks associated
with system capacity requirements
The MeF Project Team, in conjunction with the engineering organization, identified the need for
appropriate infrastructure requirements early in Calendar Year 2008. As a result, a MeF system
benchmark test was conducted in May 2008. The benchmark test results primarily included


                                                                                           Page 8
                          Modernized e-File Will Enhance Processing of
                         Electronically Filed Individual Tax Returns, but
                      System Development and Security Need Improvement



development of performance measures needed to support the MeF Release 6 hardware
architecture.
However, the Business Rules and Requirements Management office granted the MeF Project a
waiver to exit the detailed design phase of the project development cycle in December 2008
without the final or new infrastructure requirements. The Business Rules and Requirements
Management office granted the waiver because the MeF Project Team gave assurances they were
working closely with the Infrastructure Architecture and Engineering office and were confident
that any infrastructure changes would not negatively impact the project. The conditional
approval to exit the detailed design phase was contingent upon the Business Rules and
Requirements Management office receiving all final requirements by January 25, 2009. The
detailed design phase exit was approved on December 4, 2008, without the revised infrastructure
requirements.
In April 2009, the MeF Project Team formally identified capacity testing as a risk to the project
schedule. This risk concerned the team’s absence of experience in MeF system capacity testing
for individual tax returns. Subsequently, the planned June 2009 system capacity testing was
delayed and not completed until the end of September 2009. The capacity testing delay meant
the final infrastructure requirements were not known until the end of September 2009.
The capacity testing results showed the infrastructure needed additional infrastructure hardware
(eight Internet gateways) to securely manage the volume of electronic tax form transmissions for
processing. The purchase and installation of these gateways is estimated to occur in
March 2010 to handle the peak period of individual tax return filing in April. The cost for the
infrastructure additions includes $556,800 in hardware costs, $355,453 for installation and
configuration costs, and $114,055 in related service costs for maintaining the gateways through
January 2010. The additional infrastructure cost is $1,026,308 of the total $83.6 million
estimated for the development and deployment of MeF Release 6.1.
The MITS organization’s Risk Identification Procedure provides that special emphasis should be
placed on risk identification during the planning stages of a project. In addition, the Risk
Identification Procedure provides a checklist of risk categories and specific questions to consider
during planning, including the following questions which may have helped the MeF Project
Team identify capacity testing as a candidate risk:
   •   Has enough time been scheduled to design and implement unfamiliar areas?
   •   Will the product be operated in an unfamiliar or unproved software environment?
   •   Will the product be operated in an unfamiliar or unproved hardware environment?
   •   Are all of the technology requirements included in the enterprise architecture?
   •   Are there unique requirements that have never been implemented before?
   •   Is there customization required for hardware?
                                                                                            Page 9
                               Modernized e-File Will Enhance Processing of
                              Electronically Filed Individual Tax Returns, but
                           System Development and Security Need Improvement



      •    Will infrastructure support groups be ready for deployment of products (including
           hardware, software licenses, and network support)?
After identification of candidate risks, the procedure also includes steps to guide the project to
estimate the probable impact date of the risks, such as:
      •    Reviewing related program/project schedules and related information for impacted areas.
      •    As necessary, engaging the risk coordinator and other stakeholders and subject matter
           experts in determining the probable date of impact.
      •    Assessing date impacts of cross project and other external dependencies.
      •    Estimating and documenting a probable date when the candidate risk event could begin to
           negatively impact the program/project or organization entities.
By using the Risk Identification criteria previously cited, the issues encountered that delayed
testing may have been addressed earlier in the development process. For instance, the
Applications Development organization explained that capacity testing was delayed because the
MeF focused capacity testing was not performed in the past and the Project Team was not
prepared to meet the testing schedule. The complexity of this release and the potential volume of
electronic tax form transmissions required a detailed test plan to ensure all necessary testing was
identified. The organization also noted that technical issues were encountered with the test
environment setup, components, and configurations, as well as tool license issues and data
preparation problems. All of these issues required resolution to ensure successful testing.
The MeF Project Team may have avoided or reduced the risk associated with timely acquiring
the additional infrastructure hardware needed had it applied lessons from prior release
development and deployment experiences. In a prior TIGTA audit report entitled The
Modernized e-File Project Can Improve Its Management of Requirements, 7 we reported that the
MeF system experienced problems in its ability to handle the number of returns filed during the
March 2006 peak tax return filing period, and subsequently the Project Team developed lessons
learned to address these problems and to prevent similar occurrences. Lessons learned from
prior MeF releases that were not applied to validate MeF Release 6.1 included the need to timely
validate performance engineering model assumptions and determine the impact of new forms
and other processing loads on shared capacity.
Current guidance in the MITS organization Enterprise Life Cycle prescribes the development of
a Lessons Learned Report at each milestone. However, we did not locate any guidance requiring
the reference to or use of Lessons Learned Reports from prior phases or releases at the inception
of new phases or releases of projects. The Phase Kickoff meeting directs an assessment of the
detailed requirements, implementation approach (including tailoring plans), schedule, budget,


7
    Reference number 2007-20-099, dated July 9, 2007.
                                                                                               Page 10
                          Modernized e-File Will Enhance Processing of
                         Electronically Filed Individual Tax Returns, but
                      System Development and Security Need Improvement



risk and/or issues for that phase, and a revisit to the release
strategy. However, this meeting does not require a review           The use of Lessons Learned
of Lessons Learned Reports as one of the items listed among       Reports is intended to improve
the documents and other artifacts cited as inputs to the          the efficiency and effectiveness
Project Initiation and Phase Kickoff Meeting Procedure.            of future projects, releases, or
                                                                  phases by reducing the number
The MeF Project Team identified that the risks in                   of repeat issues and lessons
improperly sizing infrastructure hardware to help securely           already learned in the past.
manage the volume of electronic tax form transmissions for
processing may result in degrading system performance or
even the inability to receive or view files for tax processing. The MeF Project Team also
recognized the potential need for future expansion of the infrastructure hardware with
procurement provisions for at least 16 more Extensible Markup Language gateways, if
necessary.
The MeF system enhances the filing capabilities for tax preparers and the processing of tax
returns for the IRS. These enhanced capabilities are not available if the MeF system is not
operational. The MeF system is critical to States, which will not receive returns filed for them if
it is not operational. Compromises of the MeF system’s performance could affect the confidence
taxpayers have in the IRS’ ability to securely manage filed tax forms.

Recommendations
The Chief Technology Officer should:
Recommendation 2: Modify the Enterprise Life Cycle guidance to require consideration of
prior Lessons Learned Reports as part of the Project Initiation and Phase Kickoff Meeting
Procedure in the early milestone planning stages.
       Management’s Response: The IRS agreed with our recommendation and will
       incorporate updates to the Project Initiation and Phase Kickoff Meeting Process
       Description and Procedure.
Recommendation 3: Use the Risk Identification Procedure as an input to the Enterprise Life
Cycle’s Project Initiation and Phase Kickoff Meeting Procedure.
       Management’s Response: The IRS agreed with our recommendation and will
       incorporate updates to the Project Initiation and Phase Kickoff Meeting Process
       Description and Procedure.




                                                                                            Page 11
                                 Modernized e-File Will Enhance Processing of
                                Electronically Filed Individual Tax Returns, but
                             System Development and Security Need Improvement



Modernized e-File Security Issues Were Not Adequately Controlled or
Resolved
We assessed the security controls and issues related to the MeF Release 6.1 development. We
reviewed the IRS MeF Release 6.1 System Security Plan for the inclusion of the security controls
from the National Institute of Standards and Technology Special Publication 800-53,
followed up on the resolution of the 13 MeF Release 4 security vulnerabilities previously
reported on the MeF system, and monitored the MeF Release 6.1 detailed system design phase
(Enterprise Life Cycle Milestone 4a) and additional system development phase (Enterprise Life
Cycle Milestone 4b) exit condition security findings identified during the development of
MeF Release 6.1.
While the IRS included the recommended security controls in the MeF System Security Plan,
controls were not adequate to manage all of the security risks, issues, and action items. Although
information provided by the IRS showed that 10 of the 13 security vulnerabilities were resolved
by December 2008, the January 2010 Security Test and Evaluation reports that only 2 of the
13 vulnerabilities were resolved. Further, this Security Test and Evaluation identified two failed
security controls that were not previously reported as vulnerabilities.
The MeF Project Team also reported resolving 12 of 15 security findings it identified during
development. The three remaining findings relate to infrastructure, with imminent resolution of
one finding and deferral of another to MeF Release 6.2; the last is considered outside the scope
of the MeF application. Appendix V provides the details and status of actions to resolve the
related weaknesses of the 13 security vulnerabilities and 15 security findings identified by the
MITS organization.

The MeF System Security Plan included all of the recommended security controls
The MeF System Security Plan included all 212 of the National Institute of Standards and
Technology Special Publication 800-53 (Revision 2) recommended security controls. Revision 3
to the Special Publication 800-53 was issued in August 2009. After consulting with the
Department of the Treasury’s Chief Information Security Officer, the IRS’ Cybersecurity
organization decided to implement this guidance with the Federal Information Security
Management Act of 2002 8 assessment that will begin in July 2010. Revision 3 includes
252 recommended security controls for the MeF that will be required for the next MeF release,
scheduled for January 2011.

The MeF system successfully completed disaster recovery tests
Disaster recovery is an organization’s ability to respond to an interruption in services by
implementing a plan to restore critical business functions. The MeF system participated in

8
    Pub. L. No. 107-347, Title III, 116 Stat. 2946 (2002).
                                                                                          Page 12
                              Modernized e-File Will Enhance Processing of
                             Electronically Filed Individual Tax Returns, but
                          System Development and Security Need Improvement



disaster recovery testing on October 24, 2009. The tests showed that live transactions were
successfully processed on the MeF disaster recovery environment and posted and stored to
interfaced systems. Examples of the specific test accomplishments included:
      •   Successful processing of Internet filing and application-to-application transmissions.
      •   Successful tax return requests and displays through the Employee User Portal.
      •   Successful recovery of transactions from the disaster recovery site.
      •   Successful reverse replication showing query reports from the disaster recovery site and
          original database site were identical.

The Cybersecurity organization did not control or resolve all existing
MeF security vulnerabilities
Security vulnerabilities are weaknesses identified in current operating systems. IRS policy
specifies that all computer system weaknesses from any valid source should be entered in the
Plan of Action and Milestones list. IRS system owners must track the status of the resolution of
all weaknesses and verify that each weakness is corrected before reporting the item as resolved
on the list.
The IRS is required to submit the Plan of Action and Milestones listing system weaknesses to the
Department of the Treasury and the Office of Management and Budget on a quarterly basis. The
Office of Management and Budget uses the information to assess the agency’s progress in
alleviating system weaknesses, monitor the Federal Government’s ability to implement the
Federal Information Security Management Act of 2002, and make budgetary decisions.
Inaccurate or incomplete Plan of Action and Milestones information affects the Office of
Management and Budget’s ability to obtain an accurate status of IRS security weakness
remediation.
There were 13 MeF system security vulnerabilities identified as part of the IRS Cybersecurity
MeF Release 4 Security Risk Assessment, dated April 23, 2007. These security vulnerabilities
were also reported in a prior TIGTA report entitled The Internal Revenue Service Deployed the
Modernized e-File System With Known Security Vulnerabilities. 9 Information provided about
the status of the previously reported security vulnerabilities showed that in December 2008, 10
of the 13 vulnerabilities were resolved.
We performed an analysis of the vulnerabilities and found the resolution activity was not always
adequately controlled or monitored. For example:
      •   The processes for establishing and confirming user identification on the MeF system did
          not meet Federal Government standards for accrediting cryptographic modules.

9
    Reference Number 2009-20-026, dated December 30, 2008.
                                                                                             Page 13
                             Modernized e-File Will Enhance Processing of
                            Electronically Filed Individual Tax Returns, but
                         System Development and Security Need Improvement



         This vulnerability was initially tracked in the Plan of Action and Milestones, but was
         closed on December 3, 2007. On December 17, 2008, the IRS provided a management
         response to our report that showed that this issue was closed. On September 15, 2009, an
         Item Tracking Reporting and Control System risk was opened for this security
         vulnerability. The MITS organization is currently taking actions to resolve this
         vulnerability by March 15, 2010.
         This vulnerability was not formally tracked by the IRS between the Plan of Action and
         Milestones being closed in December 2007 and the Item Tracking Reporting and Control
         System risk being opened in September 2009.
     •   Two security vulnerabilities for audit trails were not adequately controlled to reach
         resolution as part of Release 6.1 deployment:
         o The MeF system and database have a number of audit log weaknesses, including
           1) all required auditable events are not being captured, 2) no official has been
           assigned to monitor and maintain system audit mechanisms, 3) no database audit
           reduction tools were used, and 4) certain users that should have limited access have
           full capabilities to access database records, including taxpayer information.
         o An audit log review process was not in place, and logs were not being reviewed by
           MeF system officials.
         Both of these vulnerabilities were cancelled from the Plan of Action and Milestones on
         August 1, 2009, and were added to the IRS Security Material Weakness. 10 Not all of the
         details for the cancelled security vulnerabilities were included in the material weakness.
         Additionally, based on the due dates of the material weakness, the security vulnerabilities
         will not be completed until between June 2010 and April 2011. Therefore, the security
         vulnerabilities may still exist for MeF Release 6.1 when it begins operating in
         February 2010. Additionally, the audit trail issue has been included in several prior
         TIGTA reports beginning in August 2004. 11



10
   The IRS established the Security Material Weakness in 1997. Since then, the IRS has aggressively strengthened
its computer security capabilities. The original 1997 plan was rewritten in 2003, 2005, and again in 2008. An
Executive Steering Committee oversees the plan, ensuring that material weakness areas are addressed by all
impacted organizations, appropriate policy and procedures are implemented, and actions resolve the systemic cause
of the material weakness.
11
   The Audit Trail System for Detecting Improper Activities on Modernized Systems Is Not Functioning (Reference
Number 2004-20-135, dated August 26, 2004), Security Controls Were Not Adequately Considered in the
Development and Integration Phases of Modernization Systems (Reference Number 2005-20-128, dated
August 18, 2005), Improvements Are Needed to Ensure the Use of Modernization Applications Is Effectively Audited
(Reference Number 2006-20-177, dated September 29, 2006), and The Internal Revenue Service Deployed Two of
Its Most Important Modernized Systems With Known Security Vulnerabilities (Reference Number 2008-20-163,
dated September 24, 2008).
                                                                                                       Page 14
                          Modernized e-File Will Enhance Processing of
                         Electronically Filed Individual Tax Returns, but
                      System Development and Security Need Improvement



   •   After the maximum number of consecutive unsuccessful login attempts, the MeF system
       did not enforce automatic account locks on user accounts for a minimum of
       24 hours in accordance with IRS policies. The account lockout feature was set to
       15 minutes.
       This security vulnerability was closed by the Cybersecurity office as part of a Plan of
       Action and Milestones item in April 2008. This vulnerability was subsequently reported
       to the Submission Processing Executive Steering Committee as a security finding in
       December 2009 (see Appendix V, Table 1 item 6 and Table 2 item 12). The vulnerability
       was not identified for resolution for approximately 20 months, when it was reported as a
       security finding. This security finding is currently open.
Subsequently, the January 2010 Security Test and Evaluation reports show that only 2 of the
13 security MeF system vulnerabilities were actually resolved. The Security Test and Evaluation
also identified two failed security controls that were not previously reported as system security
weaknesses. The failed controls involved user access limitations and configuration of audit trail
record storage capacity.
Without proper controls to monitor and resolve the MeF system security vulnerabilities and
findings, unauthorized access to taxpayer information would continue to be available and
possibly go undetected. Consequently, the confidentiality, integrity, and availability of the
taxpayer records maintained by MeF could be impacted. Also, weak supervision and review of
user activities increases the opportunity for a user to perform undesirable actions that could go
undetected by organization officials.

Controls were not adequately used to manage all security risks, issues, and
action items affecting MeF Release 6 development
The MITS organization’s Risk, Issue, and Action Item Management Directive establishes a
common management process for addressing risks, issues, and action items across the MITS
organization. A common management process promotes early identification and timely
resolution of risks, issues, and action items when warranted. This Directive provides that:
   •   All programs/projects shall inventory and document risks, issues, and action items.
   •   All major and non-major projects, contractors, and stakeholders shall participate jointly
       and cooperatively in a common management process for risks, issues, and action items.
   •   All major and non-major projects shall record and maintain risk, issue, and action item
       data in a single, central repository.
Additionally, the Risk, Issue, and Action Item Management Process Description includes
guidance for documenting the identification, assignment, and closure of risks, issues, and action
items in a central repository.


                                                                                           Page 15
                               Modernized e-File Will Enhance Processing of
                              Electronically Filed Individual Tax Returns, but
                           System Development and Security Need Improvement



The MeF Project charter assigns the project manager responsibility for assessing risks, which
includes tracking risks until they are closed. Also, the MeF Project must adhere to the MITS
organization’s risk and issue management directive, process description, and procedures and use
the Item Tracking Reporting and Control system for documenting and controlling risks and
issues.
The MeF Project Team identified 10 security findings during MeF Release 6.1 development.
These findings were controlled as one action item which required resolution to complete the
detailed design stage of the release. Subsequently, the MeF Project Team identified five
additional security findings during the release development activities. As of December 29, 2009:
       •   One Item Tracking Reporting and Control System ticket was opened to track the
           10 detailed design stage security findings. Of these 10 findings, 8 have been closed, 1 is
           planned to be closed by March 2010, and 1 will be deferred for closure as part of MeF
           Release 6.2 in January 2011. The resolution to this finding is dependent upon the ability
           to successfully encrypt MeF information during data transmissions.
       •   Four of the five development stage security findings are not being tracked in the Item
           Tracking Reporting and Control System. Four have been closed and one is considered an
           “infrastructure” risk with resolution beyond the scope of the MeF system.
The MeF Project Team did not follow established MITS organization guidance for tracking of
modernization project risks. The security findings were not related and not controlled
individually in the Item Tracking Reporting and Control System. Absence of individual control
of the findings may prevent management from obtaining the resolution status of the findings
prior to the initiation of the release. If these risks are not resolved, the IRS may not be able to
properly secure tax return information received through the MeF system.

The ability to adequately control the identification and resolution of security
vulnerabilities and findings continues to challenge the IRS
TIGTA’s report entitled Customer Account Data Engine Release 4 Includes Most Planned
Capabilities and Security Requirements for Processing Individual Tax Account Information 12
found that improvement was needed in tracking vulnerabilities until resolution in the Plan of
Action and Milestones list. Specifically, the IRS Cybersecurity organization does not monitor
system owners’ compliance with IRS policy to track all system vulnerabilities in the Plan of
Action and Milestones lists. Further, it does not monitor system owners’ compliance with IRS
policy to verify that weaknesses are corrected before reporting them as resolved on the Plan of
Action and Milestones list.
We recommended that the Chief Technology Officer direct the Cybersecurity organization to
take actions that ensure the Customer Account Data Engine and mainframe computer system

12
     Reference Number 2009-20-100, dated August 28, 2009.
                                                                                              Page 16
                          Modernized e-File Will Enhance Processing of
                         Electronically Filed Individual Tax Returns, but
                      System Development and Security Need Improvement



owners: 1) appropriately enter and track system vulnerabilities on control systems, including the
Plan of Action and Milestones list and the Item Tracking Reporting and Control System, and
2) verify corrective actions are fully implemented before they are reported as resolved.
The IRS agreed with our recommendation. The corrective action stated that the Cybersecurity
organization will continue to improve the process to ensure that system owners comply with IRS
policy to enter and track all system vulnerabilities in IRS control systems. However, the lack of
control of the MeF system vulnerabilities are continued evidence that the IRS needs to be more
proactive in ensuring that system vulnerabilities are properly entered and tracked.

Recommendation
Recommendation 4: The Chief Technology Officer should ensure that the Cybersecurity
organization will complete implementation of the process to ensure that system owners comply
with IRS policy to enter and track all system security weaknesses in IRS control systems. This
should include all MeF system security issues and it should be ensured they are monitored and
tracked to resolution in either the Plan of Action and Milestones or the Item Tracking Reporting
and Control System.
       Management’s Response: The IRS agreed with our recommendation. The
       Cybersecurity office responded that it has made continuous improvements to the Plan of
       Action and Milestones process in recent years and considers the process complete and
       implemented as of March 25, 2010.




                                                                                         Page 17
                                Modernized e-File Will Enhance Processing of
                               Electronically Filed Individual Tax Returns, but
                            System Development and Security Need Improvement



                                                                                       Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the MeF Project Release 1 6.1
development activities will provide the capability to electronically receive, process, and secure
U.S. Individual Income Tax Returns (Form 1040), delivering the intended benefits to the IRS
and taxpayers. This review was part of our Fiscal Year 2010 Annual Audit Plan for reviews of
the IRS Business Systems Modernization efforts.
I.         Determined whether the MeF Project Release 6.1 development provides the planned
           capabilities and benefits to the IRS and taxpayers.
II.        Followed up on prior TIGTA report recommendations to determine whether the
           corrective actions for improvements to the MeF Project were adequate to resolve the
           issues regarding:
           A. Implementation of controls to ensure only valid U.S. Income Tax Returns for an
              S Corporation (Form 1120S) are accepted for processing.
           B. The use of bi-directional traceability for Release 6.1 requirements.
III.       Determined whether MeF Project Release 6.1 includes adequate security controls and
           whether all previously identified security vulnerabilities and findings have been resolved
           to provide adequate security of taxpayer return information on the MeF system.
IV.        Determined whether the MeF Project Releases 6.1, 6.2, and 7 funding and scope were
           properly monitored and controlled.

Modernized e-File Release 6.1 Requirement Samples
Tables 1 and 2 present the MeF Release 6.1 populations and samples we used to analyze the
adequacy of the bi-directional requirement traceability (Subobjective II. B.). Table 1 presents
the parameters of the sample we selected from the IRS customer requirements in the MeF
Release 6.1, Milestone 4b, Business System Requirements Report to verify the requirements that
were requested and approved for development were traced to system requirements.
Table 2 presents the parameters of the sample we selected of system requirements from the
System Integration and Test Plan, Appendix A – Integration, Test, and Deployment
Requirements Traceability Verification Matrix to verify that system requirements were
considered for testing. The system requirements are developed in support of the IRS customer

1
    See Appendix VI for a glossary of terms.
                                                                                              Page 18
                             Modernized e-File Will Enhance Processing of
                            Electronically Filed Individual Tax Returns, but
                         System Development and Security Need Improvement



requirements. Our samples included judgmentally selected requirements related to previously
identified risks as well as randomly selected requirements for review. These samples enabled us
to obtain sufficient evidence to support our results.
               Table 1: Sample Selection of MeF Release 6.1 Customer
            Requirements From the Business System Requirements Report

                                                                Sample Size From a Population of
        MeF Release 6.1 Customer Requirements Category            361 Customer Requirements
       Security                                                                 2
       Peak Processing                                                          5
       Authentication                                                           1
       Electronic Fraud Detection System                                        4
                  th
       Every 36 Customer Requirement in the                                    10
       Business System Requirements Report
                                      Total Sample Size                        22

       Source: Modernized e-File Release 6.1, Business System Requirements Report Final System
       Development Phase (Milestone 4b), dated December 3, 2009.

Detailed sample parameters:
   •    Security – We selected 2 MeF Release 6.1 customer requirements related to the security
        of the MeF system.
   •    Peak Processing – We selected 5 MeF Release 6.1 customer requirements related to the
        ability of the MeF system to support peak processing times.
   •    Authentication – We selected 1 MeF Release 6.1 customer requirement related to
        authentication of transmitters.
   •    Electronic Fraud Detection System – We selected 4 MeF Release 6.1 customer
        requirements related to the MeF system’s interface with the Electronic Fraud Detection
        System.
   •    Every 36th Customer Requirement – We randomly selected an additional
        10 MeF Release 6.1 customer requirements.




                                                                                                   Page 19
                            Modernized e-File Will Enhance Processing of
                           Electronically Filed Individual Tax Returns, but
                        System Development and Security Need Improvement




                   Table 2: Sample Selection of MeF Release 6.1 System
                  Requirements From the System Integration and Test Plan

                                                                       Sample Size From a Population of
            MeF Release 6.1 System Requirements Category                  250 System Requirements
    Capacity                                                                           5
    Audit                                                                              7
    Strong Authentication                                                              2
    Access Controls                                                                    5
             rd
    Every 23 System Requirement in the                                                10
    System Integration and Test Plan
                                               Total Sample Size                      29

   Source: Modernized e-File Release 6.1, System Integration and Test Plan, Appendix A - Integration, Test,
   and Deployment Requirements Traceability Verification Matrix, dated November 3, 2009.

Detailed sample parameters:
   •   Capacity – We selected 5 MeF Release 6.1 system requirements related to the capacity
       of the infrastructure to support the MeF system.
   •   Audit – We selected 7 MeF Release 6.1 system requirements related to the ability of the
       infrastructure to produce audit records for the MeF system.
   •   Strong Authentication – We selected 2 MeF Release 6.1 system requirements related to
       the ability of the infrastructure to provide strong authentication of systems and users to
       the MeF system.
   •   Access Controls – We selected 5 MeF Release 6.1 system requirements related to the
       ability of the infrastructure to provide access controls for the MeF system.
   •   Every 23rd System Requirement – We randomly selected an additional
       10 MeF Release 6.1 system requirements.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.




                                                                                                       Page 20
                                Modernized e-File Will Enhance Processing of
                               Electronically Filed Individual Tax Returns, but
                            System Development and Security Need Improvement



We determined the MeF Project’s application development and security provisions provided the
internal controls relevant to our audit objective. Specifically, this guidance includes the
Enterprise Life Cycle,21 the Internal Revenue Manual, and National Institute of Standards and
Technology Special Publication 800-53, Recommended Security Controls for Federal
Information Systems and Organizations. We assessed the adequacy of MeF Project development
activities in relation to direction provided by this guidance. We also assessed the adequacy of
MeF Project development and program plans by reviewing Business Systems Modernization
program and project documentation and data provided by the IRS, the Business Systems
Modernization Expenditure Plans, and the Exhibit 300, Capital Asset Plan and Business Case,
required by the Office of Management and Budget. We supported this work by interviewing
Applications Development organization, Wage and Investment Division, and Cybersecurity
organization personnel.




2
    See Appendix IV for an overview of the Enterprise Life Cycle.
                                                                                       Page 21
                         Modernized e-File Will Enhance Processing of
                        Electronically Filed Individual Tax Returns, but
                     System Development and Security Need Improvement



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Margaret E. Begg, Acting Assistant Inspector General for Audit (Security and Information
Technology Services)
Scott A. Macfarlane, Director
Edward A. Neuwirth, Audit Manager
Mark K. Carder, Senior Auditor
Beverly K. Tamanaha, Senior Auditor
Louis V. Zullo, Senior Auditor




                                                                                     Page 22
                       Modernized e-File Will Enhance Processing of
                      Electronically Filed Individual Tax Returns, but
                   System Development and Security Need Improvement



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:W
Associate Chief Information Officer, Applications Development OS:CTO:AD
Associate Chief Information Officer, Enterprise Services OS:CTO:ES
Director, Procurement OS:A:P
Director, Stakeholder Management OS:CTO:SM
Deputy Associate Chief Information Officer, Applications Development OS:CTO:AD
Deputy Associate Chief Information Officer, Systems Integration OS:CTO:ES:SI
Director, Test, Assurance, and Documentation OS:CTO:AD:TAD
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Wage and Investment Division SE:W
       Associate Chief Information Officer, Applications Development OS:CTO:AD
       Director, Procurement OS:A:P
       Director, Program Oversight OS:CTO:SM:PO




                                                                                 Page 23
                                Modernized e-File Will Enhance Processing of
                               Electronically Filed Individual Tax Returns, but
                            System Development and Security Need Improvement



                                                                                     Appendix IV

                          Enterprise Life Cycle Overview

The Enterprise Life Cycle 1 is the IRS’ standard approach to business change and information
systems initiatives. It is a collection of program and project management best practices designed
to manage business change in a successful and repeatable manner. The Enterprise Life Cycle
addresses large and small projects developed internally and by contractors.
The Enterprise Life Cycle includes such requirements as:
      •    Development of and conformance to an enterprise architecture.
      •    Improving business processes prior to automation.
      •    Use of prototyping and commercial software, where possible.
      •    Obtaining early benefit by implementing solutions in multiple releases.
      •    Financial justification, budgeting, and reporting of project status.
In addition, the Enterprise Life Cycle improves the IRS’ ability to manage changes to the
enterprise; estimate the cost of changes; and engineer, develop, and maintain systems effectively.
Figure 1 provides an overview of the phases and milestones within the Enterprise Life Cycle. A
phase is a broad segment of work encompassing activities of similar scope, nature, and detail and
providing a natural breakpoint in the life cycle. Each phase begins with a kickoff meeting and
ends with an executive management decision point (milestone) at which IRS executives make
“go/no-go” decisions for continuation of a project. Project funding decisions are often associated
with milestones.




1
    See Appendix VI for a glossary of terms.
                                                                                          Page 24
                              Modernized e-File Will Enhance Processing of
                             Electronically Filed Individual Tax Returns, but
                          System Development and Security Need Improvement



                   Figure 1: Enterprise Life Cycle Phases and Milestones

              Phase                             General Nature of Work                     Milestone
 Vision and Strategy/               High-level direction setting. This is the only
 Enterprise Architecture            phase for enterprise planning projects.                    0
 Phase
 Project Initiation Phase           Startup of development projects.                           1
 Domain Architecture Phase          Specification of the operating concept,
                                                                                               2
                                    requirements, and structure of the solution.
 Preliminary Design Phase           Preliminary design of all solution components.             3
 Detailed Design Phase              Detailed design of solution components.                   4A
 System Development Phase           Coding, integration, testing, and certification of
                                                                                              4B
                                    solutions.
 System Deployment Phase            Expanding availability of the solution to all target
                                    users. This is usually the last phase for                  5
                                    development projects.
 Operations and Maintenance         Ongoing management of operational systems.              System
 Phase                                                                                     Retirement
Source: The Enterprise Life Cycle Guide.




                                                                                               Page 25
                             Modernized e-File Will Enhance Processing of
                            Electronically Filed Individual Tax Returns, but
                         System Development and Security Need Improvement



                                                                                            Appendix V

    Status of Resolution for Modernized e-File System
      Security Vulnerabilities and Security Findings

Table 1 presents the 13 MeF security vulnerabilities identified as part of the IRS Cybersecurity
organization MeF Release 1 4 Security Risk Assessment, dated April 23, 2007. Included is the
status of the vulnerabilities provided by the IRS in response to a prior TIGTA report 2 and the
status of the vulnerabilities as reported by the January 2010 Security Test and Evaluation.
                              Table 1: MeF Security Vulnerabilities

                                                   Vulnerability Status
                                                  Provided by the IRS on            Vulnerability Status
             Security Vulnerability                 December 17, 2008               As of January 2010
1     Unauthorized users had direct                        Resolved.                 Resolved June 2007.
      access to the MeF system
      management console, which
      provided system administrative
      functionalities such as the ability to
      change security settings and web
      services configurations. Any IRS
      employee with access to the
      Intranet could login to the console.
2     Security configuration settings on                   Resolved.                     Unresolved.
      the MeF system servers and
      database were not sufficiently
      restrictive.
3     Information input restrictions for             Invalid and closed –                Unresolved.
      State Government electronic tax                      resolved.
      filings were not in place on the
      MeF system.



1
 See Appendix VI for a glossary of terms.
2
 The Internal Revenue Service Deployed the Modernized e-File System With Known Security Vulnerabilities
(Reference Number 2009-20-026, dated December 30, 2008).
                                                                                                     Page 26
                        Modernized e-File Will Enhance Processing of
                       Electronically Filed Individual Tax Returns, but
                    System Development and Security Need Improvement



                                            Vulnerability Status
                                           Provided by the IRS on     Vulnerability Status
          Security Vulnerability             December 17, 2008        As of January 2010
4   The processes for establishing and           Resolved.                 Unresolved.
    confirming user identification on
    the MeF system did not meet
    Federal Government standards for
    accrediting cryptographic modules.
5   Database users had more access               Resolved.                 Unresolved.
    privileges than they needed to carry
    out their responsibilities.
6   After the maximum number of                 Unresolved.             IRS reported that
    consecutive unsuccessful login                                        solutions were
    attempts, the MeF system did not                                     implemented in
    enforce automatic account locks on                              production in April 2008;
    user accounts for a minimum of                                   however, this same issue
    24 hours in accordance with IRS                                    is listed as Security
    policies. The account lockout                                       Finding 12 and is
    feature was set to 15 minutes.                                         reported as an
                                                                    Infrastructure risk outside
                                                                      the scope of the MeF
                                                                            application.
7   Several database user accounts had           Resolved.                 Unresolved.
    multiple invalid password settings
    that were not in accordance with
    IRS policy.
8   System users with limited access             Resolved.                 Unresolved.
    needs were granted full access to
    database records. Also, database
    administrator privileges were
    provided to nondatabase
    administrative personnel.




                                                                                     Page 27
                             Modernized e-File Will Enhance Processing of
                            Electronically Filed Individual Tax Returns, but
                         System Development and Security Need Improvement



                                                   Vulnerability Status
                                                  Provided by the IRS on            Vulnerability Status
             Security Vulnerability                 December 17, 2008               As of January 2010
9     The MeF system and database have              Partially resolved, with             Unresolved.
      a number of audit log weaknesses             the remaining actions to
      including 1) all required auditable              be completed in
      events are not being captured, 2) no            Fiscal Year 2009.
      official has been assigned to
      monitor and maintain system audit
      mechanisms, 3) no database audit
      reduction tools were used, and
      4) certain users that should have
      limited access have full capabilities
      to access database records,
      including taxpayer information.
10    An audit log review process was             Target completion date is              Unresolved.
      not in place, and logs were not              December 31, 2008 –
      being reviewed by MeF system                        resolved.
      officials.
11    An alternate processing site                         Resolved.               Resolved January 2008.
      agreement had not been established
      for the MeF system.
12    Business object reports containing             Invalid and closed –                Unresolved.
      personally identifiable information                  resolved.
      were transmitted in clear text.


13    System and database administrators             Unresolved – To be                  Unresolved.
      used insecure methods to transmit              resolved when MeF
      MeF system data within the IRS.               Release 5.5 deploys in
                                                        January 2009.
Source: Prior TIGTA report entitled The Internal Revenue Service Deployed the Modernized e-File System With
Known Security Vulnerabilities (Reference Number 2009-20-026, dated December 30, 2008) and the
January 2010 Security Test and Evaluation.




                                                                                                     Page 28
                              Modernized e-File Will Enhance Processing of
                             Electronically Filed Individual Tax Returns, but
                          System Development and Security Need Improvement



    Table 2 presents 15 MeF system development security findings. The MeF Release 6 Project
    Team identified 10 security findings on December 8, 2008, during the detailed design stage of
    the release. Subsequently, the Project Team identified five additional security findings during
    the release development activities.
                                  Table 2: MeF Security Findings
                                                                         IRS Reported Status As of
                      Security Finding Description                          December 29, 2009
1        User names and passwords are being transmitted in                  Resolved June 2009.
         clear text.
2        Passwords are being generated by MeF on behalf of                Resolved December 2009.
         users. Passwords violate password complexity
         requirements.
3        Database credentials could be exposed to systems or              Resolved December 2009.
         network administrators.

4        Oracle auditing feature is not enabled in production             Resolved December 2009.
         and should be compliant for MeF Release 6.1.

5        The system fails to protect the integrity of transmitted          Resolved January 2009.
         data. Encryption is needed to support external
         sensitive but unclassified/personally identifiable
         information data transfers.
6        Insecure protocols, File Transfer Protocol, and                   Resolved January 2009.
         Network File System are being used.

7        MeF Release 6 interface to Enterprise Application            Proposed resolution scheduled for
         Integration Broker/National Account Profile is a new            Release 6.2 implementation
         web service. Ensure new roles, data transfers, error                  January 2011.
         handling, and provisioning of credentials are
         implemented securely.
8        The Disaster Recovery strategy for MeF Release 6.1 is           Resolved November 2009.
         not defined. An Enterprise Disaster Recovery Strategy
         is needed to properly address all components needed to
         address a recovery configuration for MeF Release 6.1.




                                                                                              Page 29
                                   Modernized e-File Will Enhance Processing of
                                  Electronically Filed Individual Tax Returns, but
                               System Development and Security Need Improvement



                                                                                    IRS Reported Status As of
                          Security Finding Description                                 December 29, 2009
    9       Business Objects used for statistical reporting. 1) Some                Resolved December 2009.
            reports are not adequately protected and marked
            “Sensitive But Unclassified”; 2) Auditing of business
            objects reports with “Sensitive But Unclassified”
            information is inadequate.
    10      Gateway throughput of database not sufficient for peak             Proposed Resolution scheduled for
            loads for MeF Release 6.1.                                            implementation March 2010.

    11      Use of open source iText code presents a potential                       Resolved January 2010.
            security risk.
    12      After 3 unsuccessful attempts, the MeF system Web                  The infrastructure risk is outside the
            application and Web services automatically lockout the              scope of the MeF application. The
            offending user accounts for only 15 minutes. The                   proposed resolution is being tracked
            project office is currently verifying the 15 minutes and             as a general support system issue.
            will confirm when confirmation is received.
    13      Legacy Tax Return Data Base records for both                            Resolved December 2009.
            U.S. Individual Income Tax Return (Form 1040) and
            Application for Automatic Extension of Time To File
            U.S. Individual Income Tax Return (Form 4868)
            contain National Account Profile data. Form 1040
            records contain bank routing information which could
            be used for fraud by a corrupt administrator or inside
            attacker.
    14      Application to application client application users and                 Resolved December 2009.
            machine operators who send messages to the MeF
            system Web services cannot be individually identified,
            authenticated, and tracked by the MeF Release 6.1
            system. Lack of individual accountability can
            encourage attackers to take advantage of the situation.
    15      MeF Security Audit and Analysis System logs are not                     Resolved December 2009.
            populated with two required fields. The two fields that
            were missing were the Error Code and Return
            Message.
Source: The IRS Submission Processing Executive Steering Committee presentations.



                                                                                                         Page 30
                             Modernized e-File Will Enhance Processing of
                            Electronically Filed Individual Tax Returns, but
                         System Development and Security Need Improvement



                                                                                 Appendix VI

                                Glossary of Terms

              Term                                          Definition
Action Item                     A short-duration, minimal resources activity assigned to a member
                                or stakeholder in the program/project or organization within the
                                MITS organization. An action item must be within the scope of
                                the duties currently assigned to that person.
Business Objects                Objects in an object-oriented computer program that represent the
                                entities in the business domain that the program is designed to
                                support. For example, an order entry program might have
                                business objects to represent each order, line items, and invoices.
Business Rule                   A statement that defines or constrains some aspect of the business.
Business Systems                A complex effort that began in Calendar Year 1999 to modernize
Modernization                   IRS technology and related business processes.
Capital Asset Plan and          Also known as Exhibit 300, it is used as a one-stop document for a
Business Case                   myriad of information technology management issues such as
                                business cases for investments, agency modernization efforts, and
                                overall project management. The Office of Management and
                                Budget requires each agency to submit an Exhibit 300 twice each
                                year for each major information technology investment.
Customer Account Data           Consists of databases and related applications that will replace the
Engine                          IRS official repository of taxpayer information (the Master File)
                                and provide the foundation for managing taxpayer accounts to
                                achieve the IRS modernization vision.
Database Credentials            Requirements for securely storing and retrieving database
                                usernames and passwords for use by a program that will access a
                                database.
Electronic Fraud Detection      The primary information system used to support the IRS Criminal
System                          Investigation Division’s Questionable Refund Program, which is a
                                nationwide program established in January 1997 to detect and stop
                                fraudulent and fictitious claims for refunds on income tax returns.
Employee User Portal            A web-hosting infrastructure that supports an Intranet portal that
                                allows IRS employees to access business applications and data.

                                                                                           Page 31
                             Modernized e-File Will Enhance Processing of
                            Electronically Filed Individual Tax Returns, but
                         System Development and Security Need Improvement



              Term                                           Definition
Enterprise Application          A commercial off-the-shelf solution that will be used to enable the
Integration Broker              communication and data transformations between components of
                                the Account Management Services system, the current processing
                                environment, and the Customer Account Data Engine.
Enterprise Life Cycle           A structured business systems development method that requires
                                the preparation of specific work products during different phases
                                of the development process.
File Transfer Protocol          A standard set of rules used to exchange and manipulate files over
                                a network, such as the Internet.
Governance                      An IRS designed enterprise governance model that assigns all
                                information technology projects to an appropriate executive
                                oversight body.
Infrastructure                  The fundamental structure of a system or organization. The basic,
                                fundamental architecture of any system (electronic, mechanical,
                                social, political, etc.) determines how it functions and how flexible
                                it is to meet future requirements.
Issue                           A situation or condition that either 1) currently has negative
                                consequences for an Information Technology program/project or
                                organization or 2) has 100 percent probability of having negative
                                consequences for the program/project or organization.
Item Tracking Reporting and     An information system used to track and report on issues, risks,
Control System                  and action items in the modernization effort.
iText                           A library to create, read, or manipulate documents in the Portable
                                Document Format. iText can export the same document to
                                multiple formats or multiple instances of the same format.
Master File                     The IRS database that stores various types of taxpayer account
                                information. This database includes individual, business, and
                                employee plans and exempt organizations data.
Milestone                       Milestones provide for “go/no-go” decision points in a project and
                                are sometimes associated with funding approval to proceed.




                                                                                           Page 32
                              Modernized e-File Will Enhance Processing of
                             Electronically Filed Individual Tax Returns, but
                          System Development and Security Need Improvement



             Term                                             Definition
MITS Enterprise Governance        The highest level recommending and decision-making body to
Committee                         oversee and enhance enterprise management of information
                                  systems and technology. It ensures strategic modernization and
                                  information technology program investments, goals, and activities
                                  are aligned with and support 1) the business needs across the
                                  enterprise and 2) the modernized vision of the IRS.
National Account Profile          A compilation of selected entity data from various Master Files. It
                                  includes all valid and invalid individual taxpayer entity
                                  information for all taxpayers on the Individual Master File,
                                  Business Master File, and Employee Plans Master File Processing.
National Institute of Standards   An agency under the Department of Commerce responsible for
and Technology                    developing standards and guidelines, including minimum
                                  requirements, for providing adequate information security for all
                                  Federal Government agency operations and assets.
Personally Identifiable           Information that can potentially be used to uniquely identify,
Information                       contact, or locate a single person.
Portable Document Format          A fixed-layout document format used for representing
                                  two-dimensional documents in a manner independent of the
                                  application software, hardware, and operating system.
Release                           A specific edition of software.
Requirement                       A formalization of a need and the statement of a capability or
                                  condition that a system, subsystem, or system component must
                                  have or meet to satisfy a contract, standard, or specification.
Risk                              A potential event that could have an unwanted impact on the cost,
                                  schedule, business, or technical performance of an Information
                                  Technology program/project or organization.
Security Test and Evaluation      A testing process that determines the extent to which the controls
                                  are implemented correctly, operating as intended, and producing
                                  the desired outcome with respect to meeting the security
                                  requirements for the system.
Task Order                        An order for services planned against an established contract.
Work Breakdown Structure          A deliverable-oriented grouping of project elements that organizes
                                  and defines the total scope of a project. A project schedule used to
                                  manage the tasks, task relationships, and resources needed to meet
                                  project goals.

                                                                                            Page 33
           Modernized e-File Will Enhance Processing of
          Electronically Filed Individual Tax Returns, but
       System Development and Security Need Improvement



                                                  Appendix VII

Management’s Response to the Draft Report




                                                         Page 34
    Modernized e-File Will Enhance Processing of
   Electronically Filed Individual Tax Returns, but
System Development and Security Need Improvement




                                                  Page 35
    Modernized e-File Will Enhance Processing of
   Electronically Filed Individual Tax Returns, but
System Development and Security Need Improvement




                                                  Page 36
